Nos. 20A53, 20A54
In the Supreme

Court of the United States

__________________
JOSEPH B. SCARNATI, III, ET AL., Applicants,
v.
KATHY BOOCKVAR, SECRETARY OF PENNSYLVANIA, ET AL., Respondents.
__________________
REPUBLICAN PARTY OF PENNSYLVANIA, Applicant,
v.
KATHY BOOCKVAR, SECRETARY OF PENNSYLVANIA, ET AL., Respondents.
__________________
On Applications for Stay Pending Disposition
of a Petition for a Writ of Certiorari
__________________
MOTION FOR LEAVE TO FILE; AND AMICUS BRIEF OF CHRISTIAN
FAMILY COALITION (CFC) FLORIDA, INC., IN SUPPORT OF
APPLICATIONS FOR STAY PENDING DISPOSITION
__________________
DENNIS GROSSMAN
Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com
Counsel for Amicus Curiae
October 5, 2020

Amicus Christian Family Coalition (CFC) Florida, Inc., hereby moves on an
emergency basis for leave to file its attached Amicus Brief in support of Petitioners’
emergency motions for a stay and certiorari.
OVERVIEW AND THE NEED TO ENFORCE THE UNIFORM FEDERAL
ELECTION DATES, TO PREVENT ELECTORAL CHAOS
This Court’s emergency intervention and stay are essential to prevent the
electoral chaos that will ensue under the last-minute decisions below. In violation
of long-standing Congressional statutes – for uniform nation-wide federal election
dates – the last-minute decisions of the Pennsylvania Supreme Court under review,
as well as similar last-minute decisions in other states, have authorized a myriad of
inconsistent “extensions” permitting voters to cast or “correct” ballots for Congress
and President, long after the uniform election dates Congress prescribed. These
last-minute judicial decisions not only make a mockery of the uniform election dates
in federal law but also guarantee electoral chaos, uncertainty, lack of finality, and
post-election fraud.
Only this Court’s immediate intervention and a stay can prevent this
electoral anarchy. Without a stay and immediate review, the same issue will
inevitably arise after the election which, by then, will be hopelessly complicated by
election “results” already tabulated, as well as by post-election chaos, uncertainty,
confusion, and fraud.
The attached editorial from the Wall Street Journal of Friday October 2, 2020
surveys the inconsistent last-minute voting “extensions” ordered by lower courts

i

across the country – in violation of federal law – and underscores the chaos, fraud
and uncertainty that will ensue absent this Court’s immediate review.
Petitioners filed their emergency applications only last week, and Amicus
became aware of them only this past weekend. As a result, Amicus had not had an
opportunity to seek the parties’ consent to the filing of the attached Amicus Brief
which must be filed today.
The attached Amicus Brief is short, focuses on a single issue, will not
prejudice any party, will assist this Court, and is being filed as soon as possible
following Petitioners’ emergency application.
This Court should grant this emergency motion, permit the filing of the
attached emergency Amicus Brief, grant a stay and certiorari, and enforce the
uniform election dates that Congress has prescribed for federal elections.

Dennis Grossman
Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com
Counsel for Amicus Curiae

ii

AMICUS BRIEF OF CHRISTIAN FAMILY COALITION (CFC) FLORIDA,
INC., A FLORIDA NOT-FOR-PROFIT CORPORATION
The Christian Family Coalition (CFC) Florida, Inc. (“Amicus”), hereby
submits its Amicus Brief in support of Petitioners’ emergency applications for a stay
and certiorari, to enforce the uniform federal election dates Congress has prescribed
for Congressional (2 U.S.C. §§ 1 & 7) and Presidential elections (3 U.S.C. § 1).
INTEREST OF AMICUS
Amicus, a non-profit corporation, is a human rights and social justice
advocacy organization representing over 500,000 fair-minded voters. Amicus
actively seeks to protect human rights and social justice in litigation and political
forums. The performance of Amicus’s function in legislative and executive forums
depends upon the responsiveness of the political process and, in turn, upon the
integrity and fairness of the elections by which legislators and executive officials are
elected, including members of Congress and the President. The uniform nationwide election dates enacted by Congress for its own members (2 U.S.C. §§ 1 & 7)
and for Presidential electors (3 U.S.C. § 1) – which are at issue in these cases – are
indispensable to the integrity, honesty and timeliness of federal elections and thus
to the responsiveness of the political processes upon which Amicus depends to
protect human rights and social justice. 1

No counsel or other representative or agent of any party in these cases authored
any part of this Amicus Brief or exercised any form of control or approval over this
Amicus Brief or any portion of it. No person or entity, aside from Amicus or its
counsel, made a monetary contribution to the preparation or submission of this
Amicus Brief.
1

1

SUMMARY OF ARGUMENT
Congress has enacted uniform nation-wide election dates for electing
members of Congress and Presidential electors (2 U.S.C. §§ 1 & 7; 3 U.S.C. § 1).
The Pennsylvania Supreme Court, as well as courts in several other States, has
violated these uniform nation-wide election dates by authorizing late receipt of
mail-in ballots, often with tacit indifference to late voting itself. A stay is necessary
not only to preserve the temporal uniformity that Congress required but also to
preserve the integrity of federal elections by preventing (or at least minimizing) the
chaos, uncertainty, confusion, tampering, and public unrest and disrespect that will
inevitably ensue from masses of late-arriving mail-in ballots.
THE UNIFORM ELECTION DATE PRESCRIBED BY CONGRESS FOR ALL
FEDERAL ELECTIONS AND THE CHAOTIC CONSEQUENCES THAT
WILL ENSUE NATIONWIDE FROM ITS VIOLATION
Present Amicus fully supports the arguments on all issues by Petitioners in
both cases 20A53 and 20A54 as well as the arguments on all issues by amici Cutler
and Benninghoff in 20A53 filed September 30, 2020. However, present Amicus
wishes to focus on a single issue in the applications – the uniform election date
enacted by Congress for federal elections and the chaotic and horrific consequences
of its violation.
Exercising its constitutional authority to supersede State regulation of the
“times, places and manner” of Congressional elections (U.S. Const. Art. I § 4 cl. 1),
Congress has prescribed uniform nation-wide election dates for Senators and
Representatives (2 U.S.C. §§ 1 & 7). Congress exercised a parallel constitutional
2

authority (U.S. Const. Art. II § 1 cl. 4) to designate a uniform nation-wide date for
the election of Presidential electors (3 U.S.C. § 1).
These uniform nation-wide voting dates in federal elections are of necessity
the dates by which the selection processes must be finalized. Whether electing
members of Congress or Presidential electors, all votes must be received and
available for tabulation by the uniform election dates Congress specified. Although
the final counting may sometimes be delayed, the votes themselves must be in and
available for counting by election “officials … to make a final selection.” This Court
has made this clear:
“When the federal statutes speak of ‘the election’ of a Senator or
Representative, they plainly refer to the combined actions of
voters and officials meant to make a final selection of an
officeholder . . . . See N. Webster, An American Dictionary of the
English Language 433 (C. Goodrich & N. Porter eds. 1869)
(defining “election” as ‘the act of choosing a person to fill an
office’). By establishing a particular day as ‘the day’ on which
these actions must take place, the statutes simply regulate the
time of the election, a matter on which the Constitution explicitly
gives Congress the final say.”
Foster v. Love, 522 U.S. 67, 71-72 (1997) (emp.added). As a result, “all elections for
Congress and the Presidency [are] on a single day throughout the nation.” Id., at
69-70 (emp.added).
This Congressional mandate for a “final selection” in federal elections on a
“single day throughout the nation” has numerous benefits. It prevents post-election
chaos, lingering uncertainty, confusion, and public unrest, and minimizes the
opportunities for post-election fraud and manipulation. It also serves the strong
public interest in finalizing the electoral process.
3

The Pennsylvania Supreme Court failed to recognize these important points.
Its decision violated this Congressional mandate for a uniform nation-wide election
date for federal officials and disserved the numerous benefits that nation-wide
temporal uniformity was designed to serve. The Pennsylvania Supreme Court
improperly allowed the late receipt of mail-in ballots up to 3 days after the uniform
federal election date – even without visible postmarks, thereby permitting late
balloting itself. This contravenes both the federal statutes and the enactment of its
own State legislature which, like Congress, had mandated receipt of all mail-in
ballots by election day itself. A stay and reversal are clearly warranted. Foster v.
Love, supra; 2 U.S.C. §§ 1 & 7; 3 U.S.C. § 1.
THE DRACONIAN POTENTIAL FOR MULTI-STATE CHAOS MANDATES A
STAY AND REVERSAL, TO END THE SIMILAR ELECTORAL MISCHIEF
UNDERWAY IN SEVERAL OTHER STATES
Pennsylvania is not alone. Judicial decisions in other States – often
manipulated through collusive “consent decrees” with sympathetic governors – have
“extended” voting or ballot-receipt deadlines well beyond the uniform federal
election day. Their potential for chaos, disruption and uncertainty in the upcoming
federal elections places a premium on a stay, allowing this Court to confirm the
uniform federal election date and put an end to the electoral mischief that other
States have engineered.
Realistically, this Court will need to confront this issue either now or after
the election. Better now than later.

4

Otherwise, there will be electoral disaster. Without prompt enforcement of
the uniform federal election dates, there will be post-election chaos, uncertainty,
confusion and increased potential for post-election fraud in the various States that
have engineered last-minute “extensions” for federal voting.
The Wall Street Journal has underscored the point, with specific examples.
In its October 2, 2020 editorial (attached), it points out:
•

In Minnesota, a collusive “consent decree” with a sympathetic governor
provided that mail-in ballots are valid through Nov. 10, 2020 even without
postmarks;

•

In North Carolina, another “consent decree” provided for receipt of ballots
through Nov. 12, 2020;

•

In Wisconsin, a federal judge unilaterally extended the receipt deadline for
federal-election ballots to Nov. 9, 2020;

•

In Georgia, a federal judge ordered late-arriving ballots to be counted
through Nov. 6, 2020;

•

In Michigan, another judge allowed mail-in ballots to be counted through
Nov. 17, 2020.

See attached Oct. 2, 2020 Wall Street Journal editorial listing the above.
CONCLUSION
The Pennsylvania Supreme Court, as well as courts in other States, has
violated the uniform nation-wide election dates Congress has prescribed for
Congressional and Presidential elections. A stay is necessary not only to preserve
the temporal uniformity that Congress intended but also to preserve the integrity of
federal elections by preventing (or at least minimizing) the chaos, uncertainty,
confusion, tampering, and public unrest and disrespect that will inevitably ensue
from massive amounts of late-arriving mail-in ballots. This Court should grant the
applications for a stay pending certiorari.
5

Respectfully submitted
Dennis Grossman
Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com
Counsel for Amicus Curiae

B

1a ,
rrrely o

J10WS
h ~ Jcft

n · : :tlt · :ll~1cly h.w~ pt~prlntcct instru Ii n • th:11 refer to the Ktcrtion D:1y Dead·
line.., it y·· . M_,.,o: ''D d phc,rin-.1! whether n bnlRcpublitlll5 nsked tJ _ U. . u·
lot h:1s R vnlirl nnd timely
pr m Gour1 to h,111 a 5 ~te ·umonl h hrforr Nm·. 3. postmark pmsu::mt to the or•
dicirll mli~ that s.1rs I t-e
lh ,feel iou ·s rule~ llf(' der insert~ new subjective
lot must be counted. n~n if
con idcrations:·
they lad: po tmarks and nrb iu r set by lnwsuil.
In Minnesota R lawsuit
rive three days after the statufiled last week jn district
tory deadline.
court ctmllcnges a consent deThe Pennsylrnnia Supt-eJ11e Court. controlled crce ngreed to by A Democratic state leader,
Y'''t ,. ti ff n,L in I ·,
beinI,! lit"~ted. Th·,

r

by Democratic justices who nre chosen in pnrti·

which snys mnil votes are valid tJ1rongh Nov.10,

san elections. i. '-lied that order Sept.17 in a 4-3 even if they lack postmnrks. In Mjchjgan the
vote. StMe Jmv SA)s VRlid ballots must arrive GOP sued in state court. seeking to overturn a
by 8 p.111. on Nov. 3. The court unilaterally judge's order that straggling ballots, if mailed
pushed it to Nov. 6. If n postmark is ntissing or by Nov. 2, could nrrive as late as Nov. 17.
illegible, officials are told to presume that the
A lawsuH in North Carolina federal court
ballot was nrniled on time.
seeks to kill a legal settlement entered into by
"This is an open invitation to voters to cast the state Board of Elections, which would count
tJ1eir ballots after Election Day," say Republican postmarked ballots tlu·ough Nov. 12. Republican
leaders of tJ1e Pennsylvania Senate, in their fil- lawmakers argue that the U.S. Constitution ex-

ing to the U.S. Supreme Court. They add that

by extending the ballot deadline, the state jurists "usurped" the Legislature's authority over

plicitly empowers the Legislature to set voting
rules, meaning tl1e Board of Elections can't huddle with private litigants to "usurp the General
Assembly's sole authority."
In Arizona state officials want to stay a federaljudge's order that voters be permitted to fix
ballots with missing signatures until "the fifth
business day" after Nov. 3. Arizona provides that
opportunity if a faulty signature is rejected, but
the law says people who outright neglect to sign
a ballot must do so by Election Day. "There are
entirely reasonable bases to distinguish between
signature mismatches and non-signatures," says
the filing at the Ninth Circuit Court of Appeals.
Specifically, there's little risk of error in throwing out unsigned ballots, which are "the exclusive fault of the voter."

elections under the U.S. Constitution.
Similar argwnents appear in a separate application to the U.S. Supreme Court from the Pennsylvania Republican Party. "This Court should
intervene now," it argues, "to provide guidance
to lower courts before the rapidly approaching
federal general ele~tion." Justice Samuel Alito,
who handles emergency appeals from that region, has asked for a response to the GOP briefs
by Monday at 3 p.m. But it's certainly true that,
left to their own devices,judges across the country are making it up as they go.
In Wisconsin last week, a federal judge said
ballots postmarked by Election Day could an-ive
by Nov. 9. State lawmakers and the Republican
* * *
Party sought a stay. On Tuesday the Seventh
The U.S. Supreme Court might be hesitant
U.S. Circuit Court of Appeals denied the re- to intervene, but the Pennsylvania appeal has
quest, saying the GOP hadn't "suffered an in- already reached its chambers, and others could
jury" and the Legislature wasn't "entitled to get there before Nov. 3. If the Justices don't
represent Wisconsin's interests as a polity." The step in to stop this chaotic, last-minute judicial
mistake was not having a citizen or elector as law-writing before the election, they might
a co-litigant. But a request for an en bane re- have to do so afte1ward, at far greater political
hearing has been filed.
cost to themselves and the country.
In Georgia, a federal judge ordered late-arThe way to protect democratic confidence
riving ballots to be counted until Nov. 6. State is to run elections by the book, not to let judges
officials haye a.stay application pending at the rewrite state laws willy-nilly in the weeks beEle~e~thSrrcwt Court of Appeals. ''Voters will ~ fore Ele~tio:r:i Day.

Scanned with CamScanner

